No. 20-443
IN THE

Supreme Court of the United States
UNITED STATES OF AMERICA,
Petitioner,

v.
DZHOKHAR A. TSARNAEV,

Respondent.
On Writ of Certiorari to the United States
Court of Appeals for the First Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, William M. Jay, counsel of
record and a member of the Bar of this Court, certify that the Brief for the National
Fraternal Order of Police as Amicus Curiae Supporting Petitioner contains 5,553
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

June 21, 2021

WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
wjay@goodwinlaw.com
(202) 346-4190
Counsel of Record for Amicus Curiae

